United States General Accounting Office                                         General Government Division
Washington, D.C. 20548




                 B-283059

                 June 25, 1999

                 The Honorable Dick Armey
                 The Honorable Dan Burton
                 The Honorable Tom Latham
                 The Honorable Dan Miller
                 The Honorable Charles Taylor
                 House of Representatives

                 Subject: Legal Services Corporation: Substantial Problems in 1997 Case Reporting by Five
                 Grantees

                 The Legal Services Corporation (LSC), operating through about 260 grantees, helps provide
                 legal assistance in civil matters to low-income individuals. Over the past few months, LSC’s
                 Inspector General has reported that four grantees had misreported the number of cases they
                 had closed during calendar year 1997 and the number they had open at the end of that year.

                 At your request, we determined the extent to which five of LSC’s largest grantees--in
                 Baltimore, Chicago, Los Angeles, New York City, and Puerto Rico--had similar problems. We
                 first asked the grantees to provide us support for the number of cases they reported to LSC.
                 We then reviewed a sample of the cases each grantee reported, checking to determine
                 whether the grantee (1) properly documented the client’s eligibility, (2) provided legal
                 services within the past year, or (3) reported duplicate cases.

                 On June 21, 1999, we briefed members of your staff on the results of this work. The enclosed
                 briefing slides provide the details of our findings, which are summarized below.

                 Summary of Findings
                 The five grantees as a group reported a total of about 221,000 cases to LSC that were closed
                 during 1997 and open at the end of the year. We estimate, based on reporting errors disclosed
                 by the grantees and our case file review, that nearly 75,000 (+/- 6,100) cases were
                 questionable.

                 The five grantees we reviewed had substantial errors in the number of cases they reported as
                 closed during 1997, as well as the number of cases they reported as remaining open at the end
                 of the year. The grantees identified their own reporting errors, ranging from fewer than 1
                 percent of reported cases for one grantee to as many as 51 percent for another grantee.



                 Page 1                                               GAO/GGD-99-135R LSC Case Reporting Problems
  Three grantees informed us that they had overreported closed cases; three informed us that
  they had overreported open cases; and one informed us that it had underreported open cases.
  The primary causes for these errors were (1) improperly reporting to LSC cases that were
  funded by other sources, such as states; and (2) problems inherent in grantees’ case
  management reporting systems.

  On the basis of our case file review, we estimate that the percentage of questionable cases
  reported by the five grantees ranged from between 2 percent to 12 percent at one grantee to
  between 36 percent and 48 percent at another grantee. We deemed these cases as
  questionable for one of the following reasons:

• The grantee reported duplicate cases for the same legal service to the same client.

• Some case files did not contain any documentation supporting the grantee’s determination
  that the client was either a U.S. citizen or was an eligible alien. LSC regulations required
  grantees to maintain this documentation when the client received in-person service.

• For cases reported as closed during 1997, some case files showed no grantee activity during
  the 12 months before the case was closed. For cases reported as open as of December 31,
  1997, some case files showed no grantee activity during calendar year 1997. Although LSC
  guidelines did not provide grantees with criteria for how quickly cases should be closed, both
  the LSC Inspector General and we used a 12-month guideline.

• Some case files did not contain any documentation that the grantee had determined that the
  client was financially eligible for LSC services. LSC regulations did not require specific
  documentation of these determinations in all cases. However, the regulations required that
  grantees (1) adopt a form and procedure to obtain eligibility information and (2) preserve
  that information for audit by LSC.

  LSC and the five grantees we reviewed had taken or planned to take steps to correct the
  causes of these case-reporting problems. For example, LSC updated its grantee handbook,
  clarifying when cases should be closed and which cases should be reported to LSC.

  We requested comments on our letter and briefing document from the President of LSC. On
  June 24, 1999, we received comments from LSC’s Acting Vice President for Programs. He
  stated that LSC has made changes to its case-reporting system, will review compliance with
  case service reporting and case management at several grantees, and will require corrective
  action to be taken with respect to grantees’ noncompliance with specific documentation
  requirements that we identified. The complete comments from LSC are included at the end
  of the enclosed briefing document.




  Page 2                                                GAO/GGD-99-135R LSC Case Reporting Problems
As arranged with your offices, unless you publicly announce the contents of this letter earlier,
we plan no further distribution until 30 days after the date of this letter. At that time, we will
send a copy of this letter to the Chairmen and Ranking Members of LSC’s appropriations and
legislative committees and to Mr. John McKay, the President of LSC. Staff members who
contributed to this work are acknowledged at the end of the enclosed briefing document. If
you or your staff have any questions about this letter, please contact me on (202)512-8777.




Norman J. Rabkin
Director, Administration
  of Justice Issues

Enclosure




Page 3                                                  GAO/GGD-99-135R LSC Case Reporting Problems
Enclosure

Comments from the Legal Services
Corporation




              Page 4       GAO/GGD-99-135R LSC Case Reporting Problems
Enclosure
Comments from the Legal Services Corporation




Page 5                                  GAO/GGD-99-135R LSC Case Reporting Problems
Enclosure
Comments from the Legal Services Corporation




Page 6                                  GAO/GGD-99-135R LSC Case Reporting Problems
    Review of Legal Services Corporation
    Case Service Reporting




    Briefing to Congressional Requesters



               June 21, 1999
                                           .




1
    Contents

    •   Background
    •   Objectives
    •   Scope
    •   Methodology
    •   Summary of Results
    •   Program Results




2
    Background - Legal Services
    Corporation
    • The Legal Services Corporation (LSC)
      is a private, nonprofit, federally funded
      corporation that helps provide
      assistance in civil matters to low-income
      individuals
    • Congress appropriated $300 million for
      LSC in 1999
    • LSC provides services indirectly through
      grants to about 260 competitively
      selected local programs
3
    Background - LSC (continued)

    • LSC distributes funds to grantees on the
      basis of the number of low-income
      persons living within a service area
    • Grantees receive additional funding
      from non-LSC sources
    • Grantees must spend a portion of their
      funding on private attorney involvement
      (PAI) in delivering legal services to the
      poor

4
    Background - LSC (continued)

    • Grantees are restricted from
      involvement in certain types of cases,
      and must serve clients who meet
      financial and citizenship/alien eligibility
      requirements




5
    Background - Case Service Reporting

    • LSC’s Case Service Reporting system
      statistically summarizes services that meet
      LSC’s definition of a case
       • In 1997, a case was defined as “a legal
         problem (or set of closely related legal
         problems) of a client, and the legal
         activities or processes used to resolve
         the problem”
       • In 1997, a client was defined as “a
         person (or group of persons) eligible for
         services from an LSC funded program
         and accepted by the program to receive
         legal services”
6
    Background - Context of Case Service
    Reporting In 1997
    • In December 1997, LSC issued
      guidance requiring that grantees retain
      paper files on closed cases for 5 years
    • Grantees were not to report cases that
      were wholly funded by non-LSC funds
    • LSC did not have guidelines for timely
      closing of cases
    • LSC did not require grantees to have
      procedures for management review of
      case service reports


7
    Background - LSC Eligibility Guidelines

    • Financial eligibility
       • Generally, a client is required to be at or below
         125% of the federal poverty level to be eligible
         for LSC-funded representation
       • With appropriate documentation of the
         grantee’s decision, clients who are between
         125% and 187.5% of the federal poverty level
         may be found eligible
       • LSC regulations required that grantees (1)
         adopt a form and procedure to obtain eligibility
         information and (2) preserve that information
         for audit by LSC

8
    Background - LSC Eligibility Guidelines
    (continued)
    • Citizenship/alien status
      • Only citizens and certain categories of
        aliens are eligible for services
      • If the client received in-person service
        delivery, a citizen attestation form or
        documentation of eligible alien status
        is required to be in the client file




9
     Background - Grantee Audits by LSC’s
     Office of Inspector General (OIG)
     • LSC’s OIG issued audit reports on
       errors, including some substantial
       overreporting, in the 1997 case service
       statistics of four grantees
     • LSC has stated that the majority of
       grantees report case service data
       correctly, and the audited grantees were
       not representative of all grantees



10
     Objectives

     • Determine extent to which five grantees
       made overreporting errors in reporting
       cases closed during 1997 and cases
       open on December 31, 1997

     • Describe actions of grantees intended to
       correct case reporting problems




11
     Scope

     • LSC Headquarters

     • LSC Office of Inspector General

     • Five of LSC’s eight largest grantees in
       terms of caseload:
        • Baltimore
        • Chicago
        • Los Angeles
        • New York City
        • Puerto Rico
12
     Methodology - LSC Headquarters

     • Reviewed relevant laws, regulations,
       and policies
     • Reviewed Case Service Reporting
       system




13
     Methodology - Review of LSC Office of
     Inspector General Work
     • Reviewed reports of audits of case
       reporting at four grantees
     • Reviewed methodology and data
       collection instruments used by OIG
     • Discussed OIG work (both in-progress
       and planned) regarding audits of case
       reporting by grantees




14
     Methodology - Grantees

     • Obtained listings from five grantees of
       open and closed cases to support statistics
       reported to LSC for 1997
     • For each program, selected random
       samples of 100 cases reported closed
       during 1997 and 100 cases reported open
       on December 31, 1997
     • Asked five grantees to create listings of
       potentially duplicate cases
     • Selected random samples of 50 potentially
       duplicate cases for 4 programs
15
     Methodology - Grantees (continued)

     • Conducted initial structured telephone
       interviews with grantee program directors
        • Interviewed the executive directors of
          the Baltimore, Chicago, Los Angeles,
          and Puerto Rico programs
        • Interviewed the directors of New York
          City’s four largest case handling offices
        • Conducted exit meetings with grantee
          officials upon completion of field work


16
     Methodology - Grantees (continued)

     • Recorded information on sample cases
       from case files using a structured data
       collection instrument
     • Discussed sample cases with grantee
       legal workers to verify status of cases
       during 1997
     • Designed sample so results would be
       generalizable to each grantee’s program



17
     Methodology - Grantees (continued)

     • Population estimates have
        • 95% confidence level
        • 10% maximum margin of error
     • Estimated the confidence intervals for
       the total number of questionable cases
       using a formula that assumed that
       potentially duplicate cases met all the
       requisite timeliness, citizenship/alien
       eligibility, and financial eligibility
       documentation criteria
18
     Methodology - Limitations

     • Did not determine extent of possible
       underreporting by grantees
     • Did not determine extent to which
       grantees have implemented corrective
       actions
     • Did not assess adequacy of corrective
       actions for resolving case reporting
       errors



19
     Summary of Case File Results

     • The five grantees we reviewed
       overreported closed cases to LSC
     • Four of the five grantees overreported
       open cases to LSC (New York City may
       have reported fewer)
     • The five grantees reported cases in
       which client eligibility decisions were not
       documented



20
     Summary of Case File Results
     (continued)
     • Four of the five grantees reported
       closed cases in which no activity had
       occurred in the past year (Los Angeles
       may not have had any)
     • The five grantees reported open cases
       in which no activity had occurred during
       1997




21
            Summary of Case File Results
            (continued)
Program       Status   No indication    Duplicate       Lack of         In-person          Total
                       of grantee       cases           documentation   service: Lack of   questionable
                       activity for 1                   on financial    documentation      cases
                       year                             eligibility     on citizen/
                                                                        eligible alien
                                                                        determination
Baltimore     Closed    5% - 19%        0.1% - 0.5%     2% - 8%          8% - 22%          21% - 34%
              Open     16% - 34%
Chicago       Closed   1% - 10%         3% - 6%         1% - 9%         10% - 33%          15% - 24%
              Open     5% - 19%
Los Angeles   Closed   Up to 4%         6% - 10%        3% - 15%        14% - 32%          23% - 40%
              Open     6% - 22%
New York City Closed   10% - 26%        0.5 – 2%        1% - 7%         17% – 31%          36% - 48%
              Open     21% - 41%
Puerto Rico   Closed   <1% - 9%         Not available   <1% – 6%        Up to 7%           2% - 12%
              Open     7% - 25%




22
        Overall Results


                                Baltimore          Chicago       Los Angeles     New York City           Puerto Rico             Five grantees
      Cases reported
      to LSC                       53,262            37,354            27,961             41,922              60,517      221,016 (see note 1)
      Grantee-
      identified cases
      reported to LSC
      in error                     27,391             4,542             1,499                   0                   0                  33,432
      Cases deemed
      questionable by
      GAO                 7,174 +/-1,634     7,317 +/-1,829    6,445 +/-1,740    21,102 +/-3,044      3,559 +/-2,226         45,597 +/- 6,080
      Total
      questionable                           7,317 +/-1,829
      cases              34,565 +/-1,634        (see note 2)   7,944 +/-1,740    21,102 +/-3,044      3,559 +/-2,226         74,487 +/- 6,080

     Note 1: Based on case listings provided to GAO by the grantees, as well as information they provided about errors in their case data, our
     estimates are based on a total population size of 212,001 cases across all 5 grantees.
     Note 2: The 4,542 grantee-identified cases reported to LSC in error were also incorrectly reported to GAO. These cases were part of
     our sample, and those that we identified as questionable cases were included in our estimate of total questionable cases.




23
     Results - Baltimore


                       Number of     Number of
                       cases         cases
                       reported to   provided to
                       LSC           GAO
       Closed during
       1997               27,490        16,913

       Open on
       12/31/97           25,772         8,958

24
     Results - Baltimore (continued)

     • CLOSED CASES: DIFFERENCES IN
       NUMBERS REPORTED TO LSC AND GAO

     • The grantee reported 10,577 fewer closed
       cases to GAO than to LSC. Upon review
       of its 1997 data, the grantee determined
       that these cases should not have been
       reported to LSC because:




25
     Results - Baltimore (continued)

         • 9,934 cases were not funded by LSC.
           They were state-funded Child In Need of
           Assistance cases that, according to the
           grantee, met LSC eligibility guidelines.
           Most of these cases were reported as
           non-LSC funded cases in the grantee’s
           original activity report to LSC
         • 300 were duplicate cases
         • 143 were ineligible cases
         • 133 cases were closed prior to 1997, but
           mistakenly reopened during computer
           transition
         • 67 cases were not explained
26
     Results - Baltimore (continued)

       • Based on the results of its case data
         review, the grantee submitted a revised
         1997 grant activity report to LSC on
         June 11, 1999




27
     Results - Baltimore (continued)

     • OPEN CASES: DIFFERENCES IN
       NUMBERS REPORTED TO LSC AND GAO

     • The grantee reported 16,814 fewer open
       cases to GAO than to LSC. Upon review
       of its 1997 data, the grantee determined
       that these cases should not have been
       reported to LSC because:




28
     Results - Baltimore (continued)

       • 9,934 cases were not funded by LSC. They
         were state-funded Child In Need of
         Assistance cases that, according to the
         grantee, met LSC eligibility guidelines. The
         same cases were reported to LSC as
         closed during 1997. Most of these cases
         were reported as non-LSC funded cases in
         the grantee’s original activity report to LSC
       • 5,936 cases were closed prior to 1997, but
         most were mistakenly reopened during
         computer transition
       • 228 cases were closed in 1997, but were
         not entered into the computer database
29
     Results - Baltimore (continued)

       • 550 were duplicate cases
       • 166 cases were not explained
       • In its June 11, 1999, letter to LSC, the
         grantee notified LSC that its 1997 numbers
         should be amended to reflect the above
         changes




30
     Results - Baltimore (continued)

     • REASONS GIVEN FOR
       OVERREPORTING

     • Technology transition problems: two
       new computer systems implemented
       since 1996
          • First system a failure: cases
            opened before 1/1/96 could not be
            closed


31
     Results - Baltimore (continued)

         • Difficult transition to second system
            – Staff were not proficient in use of new system
            – Cases previously closed were inadvertently
              reopened in database
            – Staff were more focused on service delivery
     • Limited resources available for
       managing data systems




32
     Results - Baltimore (continued)


                       Number of        Number of
                       files selected   files provided

        Sample of
        closed cases        100              100

        Sample of
        open cases           99               99

        Sample of
        potentially
                             50               49
        duplicate
        cases
33
     Results - Baltimore (continued)

     • Financial eligibility
       • The file did not contain any indication
         of the basis for determining financial
         eligibility in 5% (+/- 3%) of cases.
         This represented between 362 and
         2,034 cases.




34
     Results - Baltimore (continued)

     • Timeliness of case closing
       • In 12% (+/- 7%) of closed cases, the
         files showed no grantee activity for 1
         year prior to closing. This represented
         between 861 and 3,239 cases.
       • In 25% (+/- 9%) of open cases, the
         files showed no grantee activity
         during the preceding year. This
         represented between 1,441 and 3,083
         cases.

35
     Results - Baltimore (continued)

     • Documentation of citizen/alien eligibility
       • In 13% (+/- 6%) of cases with in-person
         service delivery, there was no citizen
         attestation or alien eligibility
         documentation in the file. This
         represented between 1,287 and 3,509
         cases.
     • Duplicate cases
       • 0.1% to 0.5% of the grantee’s total 1997
         caseload were duplicates. This
         represented between 42 and 128 cases.

36
     Results - Baltimore (continued)

     • On the basis of the case file reviews, we
       estimate that the percentage of
       questionable cases ranged between 21
       percent and 34 percent. This
       represented between 5,540 and 8,808
       cases.




37
     Results - Baltimore (continued)

     • REPORTED ACTIONS TAKEN TO
       IMPROVE CASE REPORTING
        • Emphasizing the prompt closing of
          cases
        • Training on new case management
          system
        • Strict adherence to new LSC
          reporting guidelines
        • Weekly supervisory review of intakes

38
     Results - Chicago


                        Number of     Number of
                        cases         cases
                        reported to   provided to
                        LSC           GAO
        Closed during
        1997               29,032         28,933

        Open on
        12/31/97            8,322         8,372
39
     Results -Chicago (continued)

     • CLOSED CASES: DIFFERENCES IN
       NUMBERS REPORTED TO LSC AND GAO

     • 99 PAI cases were reported to LSC, but
       not to GAO because they had not been
       entered into the automated case
       management system




40
     Results - Chicago (continued)

     • OPEN CASES: DIFFERENCES IN
       NUMBERS REPORTED TO LSC AND GAO

     • 50 cases were reported as open to
       GAO, but not to LSC, because of a
       discrepancy in the computer search
       procedures




41
     Results - Chicago (continued)

     • OVERREPORTING ISSUE
       • In preparing for the GAO audit, the
         grantee identified 3,501 closed cases
         and 1,041 open cases that were
         reported in error to LSC. These were
         SSI cases funded wholly by a contract
         with the state, that, according to the
         grantee, met LSC eligibility guidelines.
       • The grantee informed LSC of the error
         in a May 26, 1999, letter

42
     Results - Chicago (continued)


                    Number of        Number of
                    files selected   files provided

     Sample of
     closed cases        100              100

     Sample of
     open cases          100               99

     Sample of
     potentially
                          50               46
     duplicate
     cases
43
     Results - Chicago (continued)

     • EXPLANATION OF FILE REVIEW
       • Because of storage limitations, one
         branch had a policy of destroying some
         paper files 1 year after the closing date.
         Information on these clients was
         retained on the grantee’s computer
         system. Cases affected by the policy
         were those closed with “advice only.”
         Therefore, these originals were not
         available for review.

44
     Results - Chicago (continued)

     • Financial eligibility
       • The file did not contain any indication
         of the basis for determining financial
         eligibility in 5% (+/- 4%) of cases.
         This represented between 443 and
         3,199 cases.




45
     Results - Chicago (continued)

     • Timeliness of case closing
       • In 1% to 10% of closed cases, the
         files showed no grantee activity for 1
         year prior to closing. This represented
         between 343 and 2,573 cases.
       • In 12% (+/- 7%) of open cases, the
         files showed no grantee activity
         during the preceding year. This
         represented between 428 and 1,602
         cases.

46
     Results - Chicago (continued)

     • Documentation of citizen/alien eligibility
       • In 21% (+/- 11%) of cases with in-person
         service delivery, there was no citizen
         attestation or alien eligibility
         documentation in the file. This
         represented between 1,657 and 5,019
         cases.
     • Duplicate cases
       • 3% to 6% of the grantee’s total 1997
         caseload were duplicates. This
         represented between 1,149 and 2,111
         cases.
47
     Results - Chicago (continued)

     • On the basis of the case file reviews, we
       estimate that the percentage of
       questionable cases ranged between 15
       percent and 24 percent. This
       represented between 5,488 and 9,146
       cases.




48
     Results - Chicago (continued)

     • REPORTED ACTIONS TAKEN TO
       IMPROVE CASE REPORTING
       • The automated case management
         system now requires that the intake
         sheet contain a field for recording
          • the financial asset level of the client
          • that citizenship or alien status was
            asked
       • New codes have been developed to
         identify cases in the computer system
         that should not be reported to LSC
49
     Results - Los Angeles


                        Number of     Number of
                        cases         cases
                        reported to   provided to
                        LSC           GAO
        Closed during
        1997               25,091        20,553

        Open on
        12/31/97            2,870         1,371
50
     Results - Los Angeles (continued)

     • CLOSED CASES: DIFFERENCES IN
       NUMBERS REPORTED TO LSC AND
       GAO
       • LSC total included about 5,700 PAI
         cases reported to LSC, but not to GAO,
         because PAI data are maintained by a
         contractor and are not in the grantee’s
         automated case management system
       • GAO total included about 1,200 non-
         LSC funded cases that were not
         reported to LSC
51
     Results - Los Angeles (continued)

     • OPEN CASES: DIFFERENCES IN
       NUMBERS REPORTED TO LSC AND
       GAO
       • 1,499 cases were incorrectly reported
         to LSC as open. After submitting the
         grant activity report to LSC, the
         grantee closed these cases with a
         closing date of 1997 or before.



52
     Results - Los Angeles (continued)

                      Number of        Number of
                      files selected   files provided

       Sample of
       closed cases        100               95

       Sample of
       open cases          100               85

       Sample of
       potentially
                            50               49
       duplicate
       cases
53
     Results - Los Angeles (continued)

     • EXPLANATION OF FILE REVIEW

       • Grantee could not locate the file for
         one open case
       • GAO selected and grantee provided
         GAO with 5 closed and 14 open
         cases that were not reported to LSC.
         These were eliminated from the
         review.

54
     Results - Los Angeles (continued)

     • Financial eligibility
       • The file did not contain any indication
         of the basis for determining financial
         eligibility in 9% (+/- 6%) of cases. This
         represented between 749 and 3,089
         cases.




55
     Results - Los Angeles (continued)

     • Timeliness of case closing
       • In up to 4% of closed cases, the files
         showed no grantee activity for 1 year
         prior to closing. This represented
         between 0 and 757 cases.
       • In 14% (+/- 8%) of open cases, the
         files showed no grantee activity
         during the preceding year. This
         represented between 73 and 259
         cases.

56
     Results - Los Angeles (continued)

     • Documentation of citizen/alien eligibility
       • In 23% (+/- 9%) of cases with in-person
         service delivery, there was no citizen
         attestation or alien eligibility
         documentation in the file. This
         represented between 2,291 and 5,343
         cases.
     • Duplicate cases
       • 6% to 10% of the grantee’s total 1997
         caseload were duplicates. This
         represented between 1,286 and 1,996
         cases.
57
     Results - Los Angeles (Continued)

     • On the basis of the case file reviews, we
       estimate that the percentage of
       questionable cases ranged between 23
       percent and 40 percent. This
       represented between 4,705 and 8,185
       cases.




58
     Results - Los Angeles (Continued)

     • REPORTED ACTIONS TAKEN TO
       IMPROVE CASE REPORTING
       • Started checklist for daily attorney review of
         intake forms for new cases
       • Added questions on intake form to check
         for duplicate cases, also plan to use a
         unique identifier
       • Periodically to review open cases to identify
         cases that should be closed
       • No longer count workshop attendees as
         cases

59
     Results - Los Angeles (Continued)

       • Instituted all-staff training programs
         on LSC compliance issues
       • Purchased a new automated case
         management system
       • Working with LSC to correct problems
         identified by LSC




60
     Results - New York City



                          Number of     Number of
                          cases         cases
                          reported to   provided to
                          LSC           GAO
          Closed during
          1997               25,379        24,844

          Open on
          12/31/97           16,543        25,225
61
     Results - New York City (continued)

     • CLOSED CASES: DIFFERENCES IN
       NUMBERS REPORTED TO LSC AND
       GAO
       • Each of the case handling programs
         had some case reporting discrepancy.
         In total, 535 fewer cases were
         reported to GAO
       • Some offices reported lower
         caseloads to GAO and other offices
         reported higher caseloads to GAO

62
     Results - New York City (continued)

     • OPEN CASES: DIFFERENCES IN
       NUMBERS REPORTED TO LSC AND
       GAO
       • 8,682 more cases reported to GAO
         than to LSC




63
     Results - New York City (continued)

     • REASONS FOR OVERREPORTING

       • Closed cases were overreported
         because one subrecipient office
         included ineligible cases in the data
         submitted to Legal Services of New
         York




64
     Results - New York City (continued)

     • REASONS FOR UNDERREPORTING
       • Open and closed cases
         • Some computer systems did not
           contain current case information at the
           time of the original data submission
         • Computer search procedures resulted
           in incorrect case numbers reported to
           LSC
         • One case handling office could not
           generate case service numbers for
           inclusion in the grant activity report
65
     Results - New York City (continued)


                     Number of        Number of
                     files selected   files provided

      Sample of
      closed cases        100               98

      Sample of
      open cases          100               92

      Sample of
      potentially
                           55               51
      duplicate
      cases
66
     Results - New York City (continued)

     • REASONS FOR DIFFERENCES IN
       NUMBER OF FILES SELECTED AND
       PROVIDED TO GAO
       • Files lost in flood
       • Unable to locate




67
     Results - New York City (continued)

     • Financial eligibility
       • The file did not contain any indication
         of the basis for determining financial
         eligibility in 4% (+/- 3%) of cases. This
         represented between 680 and 3,636
         cases




68
     Results - New York City (continued)

     • Timeliness of case closing
       • In 18% (+/- 8%) of closed cases, the
         files showed no grantee activity for 1
         year prior to closing. This represented
         between 2,369 and 6,523 cases.
       • In 31% (+/- 10%) of open cases, the
         files showed no grantee activity
         during the preceding year. This
         represented between 5,190
         and10,334 cases.

69
     Results - New York City (continued)

     • Documentation of citizen/alien eligibility
       • In 24% (+/- 7%) of cases with in-person
         service delivery, there was no citizen
         attestation or alien eligibility
         documentation in the file. This
         represented between 6,267 and 11,961
         cases.
     • Duplicate cases
       • 0.5% to 2% of the grantee’s total 1997
         caseload were duplicates. This
         represented between 250 and 1,000
         cases.
70
     Results - New York City (Continued)

     • On the basis of the case file reviews, we
       estimate that the percentage of
       questionable cases ranged between 36
       percent and 48 percent. This
       represented between 18,058 and
       24,146 cases.




71
      Results - New York City (continued)

     • REPORTED ACTIONS TAKEN TO
       IMPROVE CASE REPORTING

      • Some sites switching to computerized
        case management systems, others
        updating current systems
      • Additional training on accurate intake
        and reporting of cases
      • More thorough documentation during
        intake
72
     Results - Puerto Rico


                         Number of     Number of
                         cases         cases
                         reported to   provided to
                         LSC           GAO
         Closed during
         1997               45,977        37,990

         Open on
         12/31/97           14,540        11,172

73
     Results - Puerto Rico (continued)

     • DIFFERENCES IN NUMBERS
       REPORTED TO LSC AND GAO

       • Grantee provided case lists of PAI
         cases too late to be included in GAO
         audit




74
     Results - Puerto Rico (continued)


                         Number of                   Number of
                         files selected              files provided

          Sample of
          closed cases            100                      63

          Sample of
          open cases              100                      83

          Sample of
          potentially               0
                          Potential duplicates not          0
          duplicate              available.
          cases
75
     Results - Puerto Rico (continued)

     • EXPLANATION OF FILE REVIEW
       • Grantee destroyed numerous closed
         case files after 14 months, limiting the
         number of cases available for review.
         Cases affected by this policy were
         those closed with “brief service.”
       • Some case files were destroyed in a
         recent hurricane
       • Potential duplicates could not be
         identified because grantee did not
         enter client names into database
76
     Results - Puerto Rico (continued)

     • Financial eligibility
       • The file did not contain any indication
         of the basis for determining financial
         eligibility in <1% to 6% of cases. This
         represented between 2 and 2,896
         cases.




77
     Results - Puerto Rico (continued)

     • Timeliness of case closing
       • In <1% to 9% of closed cases, the
         files showed no grantee activity for 1
         year prior to closing. This represented
         between 16 and 3,239 cases.
       • In 16% (+/- 9%) of open cases, the
         files showed no grantee activity
         during the preceding year. This
         represented between 794 and 2,706
         cases.

78
     Results - Puerto Rico (continued)

     • Documentation of citizen/alien eligibility
       • In up to 7% of cases with in-person
         service delivery, there was no citizen
         attestation or alien eligibility
         documentation in file. This represented
         between 0 and 3,362 cases.
     • Duplicate cases
       • Could not be determined because
         automated database did not include
         client name.

79
     Results - Puerto Rico (Continued)

     • On the basis of the case file reviews, we
       estimate that the percentage of
       questionable cases ranged between 2
       percent and 12 percent. This
       represented between 1,333 and 5,785
       cases.




80
     Results - Puerto Rico (continued)

     • REPORTED ACTIONS TAKEN TO
       IMPROVE CASE REPORTING
       • In process of installing new computerized and
         networked system
       • New system will include an automated intake sheet
         which will update data simultaneously at the direct
         service center and the central office
       • Directors from each of the 19 direct service centers
         will be asked to review and certify the accuracy of
         the central office monthly listings of open and
         closed cases
       • Additional training for all staff involved in processing
         the case files

81
     LSC’s Actions to Correct Case Service
     Reporting Errors
     • In November 1998, LSC issued new
       reporting guidelines in a revised Case
       Service Reporting handbook
     • In May 1999, LSC instructed every
       grantee to conduct a self-inspection of
       its 1998 case data, including
        • confirming the accuracy of data
          submitted to LSC
        • reviewing intake and case
          management procedures
82
     LSC’s Actions to Correct Case Service
     Reporting Errors (continued)
        • producing case management reports
        • selecting and testing samples of open
           and closed cases
        • taking corrective action to correct
           problems identified
     • If the self-inspection results indicate that
       a grantee’s 1998 case service data
       contains more than 5% error, the
       grantee is to consult with LSC to
       determine the appropriate course of
       action to take.
83
     LSC’s Actions to Correct Case Service
     Reporting Errors (continued)
     • Grantees are to provide LSC the results
       of their self-inspection by July 1, 1999
     • In 1999, LSC’s Office of Compliance
       and Enforcement plans to conduct 12
       on-site program visits
     • In 1999, LSC’s OIG plans to audit the
       1998 case data of 6 grantees




84
     LSC’s New Reporting Guidelines


     • The new CSR handbook requires
       grantees to
        • use automated case management
          systems
        • report LSC-eligible cases regardless
          of funding source
        • report PAI cases separately from
          Basic Field cases


85
     LSC’s New Reporting Guidelines
     (continued)
       • ensure timely closing of cases
       • ensure that individual cases are not
         reported more than once
       • review case information prior to
         submission to LSC




86
     Program Directors’ Views of LSC
     Guidelines
     • Program directors indicated that new
       guidelines have helped clarify reporting
       criteria to some extent
     • Areas cited as more clear in the new
       guidelines
        • definition of a case
        • definition of a client
        • rules for the timely closing of cases
        • rules regarding single case entries for
          appeals
87
     Program Directors’ Views of LSC
     Guidelines (continued)
     • Continued problem areas cited by
       program directors:
        • Definition of “legal assistance” is not
          clear
        • Closing codes are inadequate to
          reflect the depth and variety of legal
          assistance provided
        • The point at which legally related
          issues become distinct enough to be
          counted as separate cases is not
          clear
88
     GAO Staff

     • Headquarters Staff      • Regional Staff

     •   Evi Rezmovic          •   Mike Dino
     •   David Alexander       •   Lem Jackson
     •   Barry Seltser         •   Brian Lipman
     •   Sid Schwartz          •   Jim Russell
     •   Barry Reed            •   Rich Tsuhara
     •   Mark Tremba           •   Pat Ward
     •   Kristeen McLain       •   Barbara Mulliken
     •   Mary Lane Renninger   •   Roger Kolar
     •   Charles Johnson       •   Cleo Zapata
     •   Charity Goodman       •   Stella Flores
     •   Dennise Stickley      •   Nelsie Alcoser
     •   Andrew Hoffman
     •   Gretchen Leyman
     •   Monica Anzaldi
     •   Carl Ramirez

89
Ordering Information

The first copy of each GAO report and testimony is free. Additional
copies are $2 each. Orders should be sent to the following address,
accompanied by a check or money order made out to the
Superintendent of Documents, when necessary. VISA and
MasterCard credit cards are accepted, also. Orders for 100 or more
copies to be mailed to a single address are discounted 25 percent.

Order by mail:

U.S. General Accounting Office
P.O. Box 37050
Washington, DC 20013

or visit:

Room 1100
     th                  th
700 4 St. NW (corner of 4 and G Sts. NW)
U.S. General Accounting Office
Washington, DC

Orders may also be placed by calling (202) 512-6000 or by using fax
number (202) 512-6061, or TDD (202) 512-2537.

Each day, GAO issues a list of newly available reports and testimony.
To receive facsimile copies of the daily list or any list from the past
30 days, please call (202) 512-6000 using a touch-tone phone. A
recorded menu will provide information on how to obtain these
lists.

For information on how to access GAO reports on the INTERNET,
send e-mail message with “info” in the body to:

info@www.gao.gov

or visit GAO’s World Wide Web Home Page at:

http://www.gao.gov
United States                       Bulk Rate
General Accounting Office      Postage & Fees Paid
Washington, D.C. 20548-0001           GAO
                                Permit No. G100
Official Business
Penalty for Private Use $300

Address Correction Requested




(182077)
